No. 19-281
IN THE
__________
CAPITAL ASSOCIATED INDUSTRIES, INC.,
Petitioner,
v.
JOSH STEIN, ATTORNEY GENERAL
OF NORTH CAROLINA, ET AL.
Respondents.
__________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
__________
BRIEF OF THE EMPLOYER ASSOCIATIONS OF
AMERICA AS AMICUS CURIAE IN SUPPORT
OF PETITIONER
_________
Tejinder Singh
Counsel of Record
Charles H. Davis
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
INTEREST OF AMICUS CURIAE ........................... 1
SUMMARY OF ARGUMENT .................................... 2
ARGUMENT ............................................................... 5
I. THE QUESTIONS PRESENTED ARE IMPORTANT TO
EMPLOYERS NATIONWIDE, AND ESPECIALLY
IMPORTANT TO SMALL BUSINESSES......................... 5
II. THE FOURTH CIRCUIT’S DECISION IS WRONG. ...... 12
A. The Fourth Circuit’s Decision Contravenes
This Court’s Precedents. ................................ 12
B. The Fourth Circuit’s Policy Concerns Do
Not Justify Its Result..................................... 16
CONCLUSION ......................................................... 24

ii
TABLE OF AUTHORITIES
Cases
Bhd. of R.R. Trainmen v.
Virginia ex rel. Va. State Bar,
377 U.S. 1 (1964) .............................................. 13, 21
NAACP v. Button,
371 U.S. 415 (1963) .................................... 13, 19, 21
Nat’l Inst. of Family & Life Advocates v. Becerra,
138 S. Ct. 2361 (2018) ............................................ 13
In re Primus,
436 U.S. 412 (1978) ................................................ 13
United Mine Workers of Am. v.
Ill. State Bar Ass’n,
389 U.S. 217 (1967) ........................................ passim
United Transp. Union v. State Bar of Mich.,
401 U.S. 576 (1971) .......................................... 13, 15
Constitutional Provisions
U.S. Const. amend. I .......................................... passim
Statutes
N.C. Gen. Stat. § 84-5(a).............................................. 6
N.C. Gen. Stat. § 84-5.1 ............................................. 20
42 Pa. Cons. Stat. § 2524(b)(1) .................................... 7
Rules
Sup. Ct. R. 37 ............................................................... 1

iii
Other Authorities
ABA Task Force on the Model Definition of the
Practice of Law, Report (2003),
https://www.americanbar.org/content/dam/
aba/administrative/professional_
responsibility/model-def_migrated/taskforce_
rpt_803.pdf ............................................................. 22
Dep’t of Justice & Fed. Trade Comm’n,
Comments on Proposed Definition of the
Practice of Law (Jan. 25, 2008),
https://www.justice.gov/sites/default/files/atr/
legacy/2008/02/07/229962.pdf ................................ 23
Dep’t of Justice & Fed. Trade Comm’n,
Comments on the American Bar Association’s
Proposed Model Definition of the Practice of
Law (Dec. 20, 2002), https://www.justice.gov/
sites/default/files/atr/legacy/2008/03/26/
200604.pdf ........................................................ 22, 23
EAA, Vision & Mission,
https://www.eaahub.org/vision_mission
(last accessed Oct. 2, 2019) ...................................... 1
Neil M. Gorsuch, A Republic, If You Can Keep It
(2019) ...................................................................... 12
Neil M. Gorsuch, Access to Affordable Justice,
100 Judicature 46 (2016) ....................................... 12
U.S. Small Bus. Admin. Office of Advocacy,
2018 Small Business Profile,
https://www.sba.gov/sites/default/files/
advocacy/2018-Small-Business-ProfilesUS.pdf (last accessed Oct. 2, 2019) .................... 9, 10

1
INTEREST OF AMICUS CURIAE 1
Amicus curiae Employer Associations of America
(EAA) represents and advocates for the interests of its
member employer associations (EAs) across the
United States. EAs, such as petitioner Capital Associated Industries, Inc. (CAI), provide human resources
guidance to employers, helping them to maximize the
performance of their businesses in a cost-effective
manner. EAA’s core purpose is to provide “a dynamic
forum for collaboration, leadership, and knowledge
through a powerful national alliance” of EAs, and by
coordinating and distributing information to EAs
through annual conferences and national surveys.2
EAA’s membership includes EAs with offices in 23
States representing members in all 50 States.
EAA supports its members’ attempts to use inhouse attorneys to provide low-cost legal guidance to
employers for the day-to-day employment issues that
frequently arise for businesses. State unauthorized
practice of law statutes (UPLs) that prohibit not-forprofit membership organizations from providing legal
advice to their employer-members burden employers’
First Amendment rights of association and speech.
EAA therefore urges this Court to grant certiorari and
hold that not-for-profit associations like petitioner
1

Pursuant to Supreme Court Rule 37, counsel for amicus represents that they authored this brief in its entirety and that none
of the parties or their counsel, nor any other person or entity other
than amicus or their counsel, made a monetary contribution intended to fund the preparation or submission of this brief. All parties have consented to the filing of this brief, and counsel for all
parties received timely notice of amicus’ intent to file this brief.
2

EAA, Vision & Mission, https://www.eaahub.org/vision_mission (last accessed Oct. 2, 2019).

2
may provide at least basic legal assistance that both
large and small businesses throughout this country
need to operate as efficiently and effectively as possible.
SUMMARY OF ARGUMENT
The petition explains that this case implicates a
split in authority with state courts of last resort, and
provides other compelling reasons to grant certiorari.
This brief focuses on the importance of the questions
presented, and on the ways that the Fourth Circuit
misconstrued this Court’s precedents to the detriment
of employers, employees, and the justice system as a
whole.
I. The questions presented are exceptionally important. Across the country, employers need legal services. They need help drafting basic legal documents,
they need advice about how to comply with a labyrinth
of state and federal employment regulations, and they
need help dealing with their regulators. Many businesses cannot afford to hire their own in-house law departments or pay private law-firm rates to obtain
these services. Many respond by forgoing the advice,
operating at risk. Others spend the money, incurring
significant costs that impose unnecessary drag on
their business models.
The problem of obtaining affordable access to good
legal advice is especially acute for small businesses,
which are a key driver of our Nation’s economic dynamism and growth. For small businesses on thin margins, the expense of private legal advice can be daunting—or even prohibitive. These businesses are the
most likely to operate without consulting attorneys at
all.

3
That outcome serves nobody. Employers are more
likely to err, employees are more likely to suffer violations, and the justice system is forced to take on the
ensuing controversies. Litigators might benefit from
greater attorney’s fees—but everybody else suffers.
One easy solution is to recognize that not-forprofit EAs like petitioner may provide basic legal advice without running afoul of UPLs. As entities dedicated to serving their employer members, EAs are in
the ideal position to monitor developments in the law
and advise about best practices. EAs could easily assist in the drafting of basic legal documents, provide
compliance guidance, and assist members in response
to administrative inquiries. If they were able to do so,
more businesses would have access to high-quality legal services, and legal problems would be solved far
more quickly and efficiently. Indeed, this is already
happening in a handful of jurisdictions that have not
applied their UPLs to prevent this practice—with positive results.
II. Fortunately, that solution is compelled by this
Court’s precedents, which recognize that member associations have a First Amendment right to hire attorneys, on a salary basis, to assist their members. This
Court has held, for example, that not-for-profit advocacy organizations have a First Amendment right to
hire attorneys to represent their members—including
not just providing legal advice, but actually litigating
those members’ cases. It has likewise held that labor
unions have a First Amendment right to hire attorneys
to represent their members in certain employment disputes. There is no principled distinction between organizations assisting employees and organizations assisting employers in this regard.

4
The Fourth Circuit reached the opposite result by
misconstruing this Court’s precedents and hyping up
perceived ethical concerns with EAs’ provision of advice to their members. But none of these concerns justify the result in this case. The potential for a conflict
of interest between an EA and its members is virtually
nonexistent for three reasons. First, EAs only seek to
provide relatively innocuous legal services, such as the
drafting of legal documents, compliance advice, and in
some cases assistance in administrative inquiries. The
EA itself will have no institutional interest, distinct
from its members’ interest, in the conduct of that representation. Second, EAs are member-controlled,
which further diminishes any prospect that an EA
would provide legal advice that does not serve its members. Members can set the rates for EA-provided legal
services, and can decide which services they want.
Third, EA attorneys are fully regulated by their state
bars and by rules of professional responsibility. If they
actually act in a manner that is contrary to the interests of their clients, they can be disciplined. That discipline provides an adequate check on potential conflicts of interest, making a blanket ban on the provision of legal services by corporations unnecessary.
Moreover, consistent with those professional obligations, EAs have procedures in place to prevent conflicts between themselves and members, and to prevent EA attorneys from engaging in representation
that creates conflicts between different EA members.
At bottom, the continued application of UPLs to
prevent not-for-profit EAs from providing limited legal
services to their members infringes the constitutional
rights of EAs and their members. As applied here,

5
these laws do not protect vulnerable clients from unethical practitioners. Instead, they protect overpriced
lawyers from meaningful competition, and prevent
needy clients from accessing legal services at a price
they can afford. These outcomes are flatly undesirable;
they certainly do not provide a compelling reason to
burden the First Amendment rights of EAs and their
members.
ARGUMENT
As the petition explains, this case presents questions of exceptional importance and implicates a split
in authority. Indeed, this case is sufficiently important
that it would warrant the Court’s review even in the
absence of a split. Employers across the country need
legal advice about employment matters—but they cannot get it from the entities that are best situated to
provide it because of the unconstitutional application
of UPLs to this advice. There is no sound reason in law
or in policy for States to discriminate against not-forprofit EAs seeking to provide legal guidance to their
members when labor unions, public-interest firms,
and in-house lawyers at insurers and corporations can
all provide similar advice to their constituents.
QUESTIONS
PRESENTED
ARE
THE
IMPORTANT TO EMPLOYERS NATIONWIDE,
AND ESPECIALLY IMPORTANT TO SMALL
BUSINESSES.
Certiorari should be granted because unconstitutional restrictions on the provision of legal advice have
a broad, nationwide economic impact. This case arises
from North Carolina, but this is not a one-state problem. Nationwide, UPLs drive up the cost of basic legal
I.

6
advice by forcing employers to seek advice from expensive private attorneys and law firms, when attorneys
working for not-for-profits like petitioner would gladly
provide such advice as a service to members. Two outcomes are commonplace. First, some businesses, unable to obtain affordable legal advice, operate without
it—risking compliance problems and unnecessary litigation. Second, some businesses shell out for the advice, diminishing their ability to deliver products and
services at a profit. In either case, UPLs unjustifiably
burden the economy, and especially small businesses.
1. EAs serve member employers across the country, in diverse sectors of the economy. EAs are member-centric organizations formed by like-minded employers who organize for their mutual benefit. By pooling their resources to organize an EA, members strive
to obtain access to the best possible advice for dealing
with an increasingly complex business climate.
EAs most directly assist their members by providing advice and support for the sorts of management
and employment issues that commonly arise in the
workplace setting. Pet. 6-9. Members receive this service in exchange for payment of annual dues. But state
UPLs force EAs to stop providing support when members ask questions that would require an answer that
could fit within the vague definition of “legal advice.”
Pet. 6-10.
In North Carolina, for example, N.C. Gen. Stat.
§ 84-5(a) prevents corporations, including their attorney employees, from practicing law unless those corporations are professional corporations owned exclusively by lawyers. EAs are required to end communications with members when further discussion could

7
potentially meet the definition of legal advice, and recommend that the member contact a private attorney
to answer their questions, even if those questions involve the sorts of rote issues that many businesses face
every day. Other UPLs work the same way. Across the
nation—with a few exceptions—these UPLs handcuff
not-for-profit EAs and prevent EAs from providing
support that employers need to most efficiently run
their businesses. See Pet. 13 (citing relevant statutes);
Pet. App. 3a n.1 (explaining that “[a]lmost all” States
restrict the practice of law by corporations).3
For example, EAs would like to assist members
drafting basic legal documents, such as employment
contracts, non-disclosure and non-compete agreements, and separation and release agreements. Although member-employers differ in size and scope, templates developed by an EA would provide an ideal
starting point that would include most of what each
employer would need. The EA could then assist the
employer with tweaking the template to fit that employer’s specific needs, all as part of the package of
benefits each employer receives in exchange for paying
annual dues.4 Many UPLs prohibit this type of tweaking.
3

Pennsylvania allows all unincorporated nonprofit associations to practice law. 42 Pa. Cons. Stat. § 2524(b)(1). A handful of
other States have tacitly permitted trade associations to provide
limited legal advice under their UPL statutes. C.A. J.A. 181-82,
197-98, 213-24. And most States permit certain not-for-profit organizations, such as public interest groups and unions, to practice
law even under broad UPLs that otherwise would cover those entities.
4

Depending on the complexity and time needed to tailor these
templates to an employer’s specifications, EAs could charge an
additional, small fee—as set by the members themselves—that

8
Additionally, EAs would offer their members more
detailed guidance on compliance with employment and
labor law and regulations. Most attorneys employed
by EAs are experts at interpreting the (sometimes)
byzantine collection of employment and labor laws and
regulations created by a variety of agencies—providing obvious value to their members. Further, because
these associations are usually state-specific, those attorneys would provide targeted advice on not just federal law, but also state labor and employment provisions. For example, the Hawaii Employers Council
found that its members cite the EA’s employment law
compliance advice as a leading reason why members
join the Council. Members would see even greater benefit if EAs could provide further assistance with understanding these laws and regulations.
This compliance guidance would constitute a sizable portion of the legal advice provided by EAs—petitioner estimated that 70-80% of the legal advice it
would provide would involve basic compliance guidelines. Pet. C.A. Br. 8. Such guidance would be synergistic with the human resources discussions EAs are
already empowered to have with member employers.
No longer would EA attorneys have to end conversations that got too close to the provision of legal advice
when discussing basic human resources issues. Instead, the advisor could provide an efficient solution to
the member’s problem. On the other hand, requiring
members to interface with outside attorneys will lead

would cover the extra time necessary to address these more detailed legal questions. But these fees would be nothing close to
what law firms charge for comparable services.

9
to duplicative discussions, and impose needless inefficiencies on legal matters with which EA attorneys are
intimately familiar.
Finally, EAs would be available for a variety of ancillary matters directly related to their member’s employment needs. For example, associations could assist
members who receive Equal Employment Opportunity
Commission inquiries, Department of Labor wage and
hour complaints, Occupational Safety and Health Administration complaints, and similar inquiries related
to agency investigations. EAs also could work hand-inhand with new employers in developing workplace policies, such as employee handbooks. See, e.g., Pet. C.A.
Br. 5-7. Some associations are limited in their ability
to help members develop employment handbooks and
policies because their state UPL rules require a final
review by a private attorney. Id. This leads to another
source of inefficiencies for members—the attorney will
bill the member for review of the entire handbook,
making the association’s initial assistance largely redundant. Instead of promoting the efficient practice of
law, UPLs as applied to not-for-profit EAs add unnecessary roadblocks to employers’ compliance with state
and federal law.
2. Small businesses, in particular, would benefit
from EAs’ legal advice. The U.S. Small Business Administration estimates that, as of 2015, there were
30.2 million small businesses in the United States, employing almost 59 million people.5 That constitutes

5

U.S. Small Bus. Admin. Office of Advocacy, 2018 Small Business Profile 1, https://www.sba.gov/sites/default/files/advocacy/
2018-Small-Business-Profiles-US.pdf (last accessed Oct. 2, 2019).

10
47.5% of the private workforce in the country,6 and
that percentage grows each year. These businesses are
responsible for tremendous job creation. In 2015 alone,
small businesses created 1.9 million net jobs, with
firms of fewer than 20 employees adding 1.1 million of
those jobs.7 The growth of small businesses is accordingly a critical driver of the national economy. And
much of those gains come from some of the smallest
businesses, including startups.
Those businesses are exactly the entities that
would most benefit from assistance by their EA. As
these businesses begin to expand, new human resources and legal issues will arise, and they will need
to navigate them. But while large corporations can afford their own in-house lawyers or outside counsel,
small businesses frequently cannot. Small businesses
need a cost-effective source of basic legal advice, lest
they risk noncompliance.
If that advice is not available, many small businesses will attempt self-help from the Internet. But
the risks inherent to businessmen turning to unverified and unsourced legal “advice” on a professionallooking webpage are beyond obvious. A business may
not look up the correct body of law; the advice they find
may not be sound or up to date; and of course they cannot find what they do not look for—and so if the business itself has not identified all of the pertinent legal
questions, it will never find the correct answers. The
result is that employers may rely on inadequate legal
advice, needlessly risking noncompliance.

6

Id.

7

Id.

11
These concerns are not hypothetical. When small
employers are faced with an employment issue requiring professional guidance, employers have told their
EAs that they are loath to pick up the phone and call
an attorney, starting the clock on billing at high rates
for straightforward advice. Many small businesses
have reported to their EAs that they would rather take
the risk of non-compliance than see that attorney’s
bill.
Businesses acting cautiously suffer as well. Outside counsel (or dedicated in-house counsel) are expensive—and it may very well be the case that obtaining
sound legal advice imposes costs that a business cannot afford to bear. While there are some circumstances
(e.g., litigation, or dealing with novel and complex issues that require highly fact-specific and individualized strategic assessments) in which businesses should
nevertheless hire outside counsel, the same cannot be
said for everyday, run-of-the-mill issues such as basic
document drafting, compliance guidance, and help
with administrative proceedings. For those issues, a
business that spends the money to dot the i’s and cross
the t’s risks placing itself at a severe competitive disadvantage.
3. To be clear, EAA’s concerns are about much
more than businesses trying to save money on legal
fees. Employers, employees, and state and federal regulators all benefit when employers receive consistent
advice from reliable sources, which allows these businesses to comply with employment and labor laws
without having to resort to self-help. As many nascent
businesses cannot consistently afford legal advice from
traditional law firms, their reliance on self-help cre-

12
ates more work for regulators—who investigate potential noncompliance—and employees—who face an inconsistent and unreliable environment where lateral
mobility could be unintentionally restricted by employers who do not fully understand the ins-and-outs of
employment law. And both state and federal courts
benefit from accurate legal advice because, if employers comply with the law, then court resources will not
be tied up to resolve these clearly avoidable disputes.
There is an obvious solution to all of these problems: the provision of accurate, up-to-date legal advice
by not-for-profit EAs would fill an important gap in the
market, and ensure that businesses of all sizes can access reliable, cost-effective legal advice from licensed
attorneys. See Neil M. Gorsuch, Access to Affordable
Justice, 100 Judicature 46, 49 (2016) (noting the need
for a “more nuanced approach” to UPLs that would
provide greater “access to competent and affordable legal services.”); see also Neil M. Gorsuch, A Republic, If
You Can Keep It 254-58, 267 (2019) (arguing for
greater access to affordable justice). EA attorneys are
ready to provide this advice, and employers are eager
to receive it. The only real obstacle standing in the way
is the overbroad application of UPLs.8
II. THE FOURTH CIRCUIT’S DECISION IS WRONG.
A. The Fourth Circuit’s Decision Contravenes
This Court’s Precedents.
As detailed by CAI’s petition, the Fourth Circuit
erred in concluding that North Carolina’s UPL did not

8

EAA, like petitioner, does not believe that UPLs should be
facially invalidated. EAA instead supports petitioner’s argument
that UPLs are unconstitutional as applied to not-for-profit EAs.

13
violate petitioner’s First Amendment rights to free association and speech. Pet. 23-37. The court incorrectly
interpreted the associational rights established by this
Court’s decisions in NAACP v. Button, 371 U.S. 415
(1963), and United Mine Workers of America v. Illinois
State Bar Association, 389 U.S. 217 (1967) (UMW), as
applying to certain not-for-profit associations like employee unions and public interest organizations while
excluding not-for-profit EAs that serve the interests of
their employer members. Pet. 23-31. The Fourth Circuit also ignored this Court’s recent clarification of the
scope of free speech rights available to professional organizations in National Institute of Family & Life Advocates v. Becerra, 138 S. Ct. 2361 (2018) (NIFLA), in
essence readopting the “professional speech doctrine”
that NIFLA explicitly rejected. Pet. 31-37. These substantial errors justify review by this Court.
This Court has recognized the value that not-forprofit organizations provide to their members as a centralized advocate and support system. The Court has
repeatedly found that the limited legal advice EAs
want to offer to their members would be protected by
the First Amendment when given by unions to their
employee members, Bhd. of R.R. Trainmen v. Virginia
ex rel. Va. State Bar, 377 U.S. 1 (1964); United Transp.
Union v. State Bar of Mich., 401 U.S. 576 (1971), or by
public interest firms on behalf of their members, In re
Primus, 436 U.S. 412 (1978); Button, 371 U.S. 415.
There is no principled distinction between those
cases and this one. This Court’s opinion in UMW is
particularly instructive. In UMW, a “Union had employed a licensed attorney on a salary basis to represent any of its members who wished his services to
prosecute workmen’s compensation claims before the

14
Illinois Industrial Commission,” and a state bar association claimed that this constituted “unauthorized
practice of law.” 389 U.S. at 218. This Court rejected
the argument, explaining that “the freedom of speech,
assembly, and petition . . . gives [the union] the right
to hire attorneys on a salary basis to assist its members in the assertion of their legal rights.” Id. at 22122. The Court recognized that state UPLs are intended
to “protect the public and . . . preserve . . . the administration of justice,” but can “in their actual operation
significantly impair the value of associational freedoms.” Id. at 222. Reconciling these competing imperatives, the Court held that the “distant possibility of
harm” from potential conflicts of interests “could not
justify a complete prohibition” on collective efforts to
obtain representation. Id. at 223.
This holding applies with full force to EAs like petitioner, and the sorts of legal services they wish to
provide. Like a union, EAs are member-led organizations that employ licensed attorneys on a salaried basis to provide limited legal advice to members. Just
like unions, EAs have associational freedom that the
First Amendment protects. And any ethical concerns,
as explained supra, are purely hypothetical. Indeed,
this Court already concluded that overbroad application of UPLs is “not needed to protect the State’s interest in high standards of legal ethics.” UMW, 389 U.S.
at 225.
The Fourth Circuit distinguished EAs from other
not-for-profits because it believed that the advice they
provide would be “for commercial ends,” Pet. App. 11a.
That is both inaccurate—given that these organizations do not exist to derive profit, but merely to provide
useful assistance to their members—and irrelevant—

15
as “the First Amendment does not protect speech and
assembly only to the extent it can be characterized as
political.” UMW, 389 U.S. at 223. Indeed, in UMW itself, the representation the union provided to its members related to indistinguishable commercial matters
(workmen’s compensation disputes).
The Fourth Circuit also erred by construing this
Court’s precedents as emphasizing “access to the
courts”—as opposed to access to legal services more
broadly. Pet. App. 11a. This Court’s precedents are not
so limited. In United Transportation Union v. State
Bar of Michigan, the Court explained that “[a]t issue
is the basic right to group legal action” and “enabling
their members to meet the costs of legal representation.” 401 U.S. at 585-86. And in UMW, the challenged
practices involved representation before a state
agency—the Illinois Industrial Commission—not a
court. 389 U.S. at 218-22; see also id. at 222 (noting
that the right at issue was “the right of an association
to provide legal services for its members,” not limited
to services in connection with litigation). Thus, this
Court has established a protected interest in having
affordable access to legal services, not just access to
courts. That makes sense because access to this
broader array of legal services is, for most businesses,
an essential prerequisite to deciding whether to go to
court.
At bottom, the Fourth Circuit simply missed that
UMW controls this case. Only this Court can reverse
that holding.

16
B. The Fourth Circuit’s Policy Concerns
Do Not Justify Its Result.
To justify its decision, the Fourth Circuit emphasized perceived ethical concerns arising from EAs
providing legal services to members. In this analysis,
the court of appeals gave short shrift to the employers’
interest in access to cost-effective legal advice, and
failed to credit the limited nature of the legal advice
EAs seek to provide to their members. Pet. App. 3a-4a.
Instead, the court took the N.C. State Bar at its word
that the provision of any legal service to third parties
by attorneys employed by non-lawyer-helmed corporations would create intractable conflicts of interest dangerous to attorney-client relationships and the legal
profession. Id. at 5a-6a, 11a-13a, 18a-19a. On closer
examination, the Fourth Circuit’s concerns are overblown, and do not justify restricting EAs from providing legal advice.
As an initial matter, the State Bar’s claims deserve close scrutiny. An entity seeking to restrict associational freedom should not be permitted to do so only
on the basis of speculation. Absent some evidence that
conflicts of interest—or other behaviors that harm clients—are likely to arise, the State Bar’s argument
should fail. In this case, there is at least some experience, in the handful of States that permit EAs to provide legal advice to their members, refuting the State
Bar’s speculation about harm. See supra note 3. That
experience undermines any empirical foundation for
the Fourth Circuit’s holding. For the reasons given below, the court of appeals’ reasoning is also wrong as a
matter of logic and law.

17
1. As explained above, EAs seek to supplement
their traditional role in providing human resources assistance so that members can avoid litigation, either
by complying with the law or resolving matters
quickly, efficiently, and economically while still in administrative proceedings. EAs have no desire to be a
one-stop-shop for all legal issues that an employer
might face, and have no intention to displace law firms
altogether, even within the sphere of employment and
labor law.
Thus, EAs do not anticipate representing members in litigation before courts, or providing advice on
complex areas of law like tax or bankruptcy that are
not within their traditional bailiwick. For example,
CAI has disclaimed providing “legal assistance with
NLRB, ERISA, immigration, tax, employee-benefit
matters, or litigation.” Pet. C.A. Br. 8. And while other
EAs may seek to assist members in administrative
proceedings before agencies, that assistance would end
before the member undertook any proceedings in
court.
This matters because the relief petitioner and
other EAs seek is not a wholesale restructuring of the
practice of law that might reasonably raise concerns
about the integrity of the legal profession. Instead, petitioner and other EAs seek only an incremental expansion of their ability to serve their members—similar to what those members can already get from inhouse counsel (if they could afford it). This is consistent with existing practice in some jurisdictions. A
number of EAs provided affidavits below stating that
they have attorneys on staff that have provided limited
legal advice to member employers for some time, and

18
these attorneys act under detailed restrictions imposed by the EA to prevent against any potential ethical concerns. See, e.g., C.A. J.A. 175-76, 182-84, 198201, 214-19. State bars have not attempted to stop this
practice in these jurisdictions, apparently recognizing
that more limited, existing ethical bars, such as the requirement that licensed attorneys maintain their independence and professional judgment, provide all of
the protection necessary to overcome ethical concerns.
Restricting the overbroad application of UPLs to notfor-profit EAs in States like North Carolina therefore
would not require the Court to restructure state ethical rules on any large scale.
It also matters because the limitations that EAs
would impose on the types of legal advice provided to
members diminish the potential for conflicts of interest. Drafting assistance with employer handbooks, employment contracts, and severance agreements, along
with basic compliance advice and regulatory support
under generally applicable labor and employment law
is unlikely to place the associations’ attorneys at loggerheads between their duties to their employerclients and their position as employees of the associations.
This case is accordingly a fortiori from cases in
which this Court has held that attorneys employed by
advocacy organizations can represent their members
in court. In those cases, one could imagine that an advocacy organization’s interests might diverge from the
interests of an individual member: the organization,
for example, might want to set a precedent, while the
member might just want a favorable settlement, even
if that means forgoing an opportunity to develop the
law. The organization’s attorneys might therefore find

19
themselves conflicted between their duty to their employer and its mission, and their duty to their client.
But this Court held that even in those circumstances,
“a State may not, under the guise of prohibiting professional misconduct, ignore constitutional rights.”
Button, 371 U.S. at 439. The balance between First
Amendment rights and the State’s interests in preventing conflicts of interest tilts even more heavily in
favor of associations here because the potential for conflict in this case is much lower.
2. The structure of EAs also makes conflict between an EA and a member unlikely. Although many
EAs are controlled by non-attorneys, their not-forprofit status and institutional purpose insulate them
from the economic opportunism that generally justifies
the ethical bars on the corporate practice of law. EAs
do not exist to make a profit—they are created by employers to provide assistance with the every-day difficulties that arise when owning a business.
Members control EAs and therefore would set the
rates for legal services provided by the association, either through annual dues or through affordable hourly
rates. There is no incentive for members to set high
fees—as those fees would come from their own pockets.
Other incentives dissuade against enacting low fees or
setting a small budget for legal advice—it is difficult
to attract the best attorneys to work for the EAs unless
they are good paying jobs. Moreover, because members
serve on the governing boards of each association, they
can ensure the quality of the legal advice provided by
EA attorneys. As the entity both receiving the legal advice and setting the fees for said advice, there is no
conflict created by provision of legal advice by the EAs
own employees to its own members. The interests of the

20
only two relevant parties are aligned—members set
the fees paid to the attorneys for legal advice through
determining attorney salaries, and the attorneys act in
the best interest of their clients, who also happen to be
their employer since the association exists solely at its
members’ behest.
On the other hand, for-profit businesses provide
services to non-related individuals or organizations,
such that often there is no relationship between the
provider of services and the recipient. Because those
corporations would not be harmed by setting high fees
for legal advice provided to unrelated third-parties (except through basic competition for services), there is at
least the potential for conflicts of interest. Those employee attorneys would be caught between maximizing
profit for their employer and providing efficient legal
advice to the third-party client. By hiring and paying
their own attorney employees to provide services only
to members, EAs avoid these potential ethical pitfalls.
See UMW, 389 U.S. at 224 (“[T]here was absolutely no
indication that the theoretically imaginable divergence between the interests of the union and member
ever actually arose[.]”).
EAs are most similar to public-interest organizations, unions, insurance company staff attorneys that
provide representation to insureds, or in-house attorneys working at a business, which are frequently exempted from the scope of UPLs because (like EAs) they
lack the ethical pressures that exist in a for-profit environment. See, e.g., N.C. Gen. Stat. § 84-5.1.
3. Third, EAs utilize a variety of protective
measures similar to those used by law firms to protect
against ethical violations. Importantly, the lawyers

21
who work for EAs are fully regulated by their respective state bars and rules of professional responsibility.
EA attorneys would be subject to the same disciplinary
proceedings and malpractice suits that would apply if
an attorney at a law firm provided improper compliance advice or disclosed confidential client information. Those disciplinary rules and proceedings—
which actually target wrongful conduct—are the right
way to ensure that conflicts of interest do not taint legal representation because they are properly tailored
to legitimate ethical concerns. A blanket ban on representation by corporations, on the other hand, is both
unnecessary and overbroad—just like the restrictions
that this Court invalidated in Button, UMW, and
Trainmen.
EAs also have policies in place to prevent conflicts
from arising between members when providing advice.
EAs employ written policies covering the confidentiality of member information. Pet. C.A. Br. 9. And, in the
rare instance where a conflict between members could
arise, EAs seek a conflict waiver or choose not to represent the members any further to avoid that conflict.
Id. For example, an EA could be asked to provide legal
advice to a member with interests directly adverse to
another member, such as a member seeking to assert
a non-compete agreement against an employee hired
by another member. In such situations, the EA will decline to provide advice to either member and will refer
both members to private counsel for further advice, removing the potential for any conflicts between members.
4. Permitting EAs to provide limited legal advice
is also consistent with the best institutional thinking

22
in this area. In 2002, for example, the America Bar Association (ABA) attempted to determine how UPLs
should be applied by examining the term “practice of
law.” The ABA Task Force concluded that a single
model definition of when nonlawyers should be authorized to practice law was inappropriate.9 Instead, the
Task Force recommended that States consider factors
such as “public protection and consumer safety,” “access to justice,” “preservation of individual choice,” and
“efficient operation of the marketplace” in deciding
how to apply UPL statutes.10 All of these factors support a supplemental role for EAs in providing legal advice to their members.
Most strikingly, the U.S. Department of Justice
(DOJ) and Federal Trade Commission (FTC) provided
joint comments to the Task Force, expressing concern
that an overly broad definition of practice of law “could
restrain competition between lawyers and nonlawyers
to provide similar services to American customers,”
“raise costs for consumers,” and “limit their competitive choices,” while “[t]here is no evidence . . . of which
we are aware that consumers are hurt by this competition and there is substantial evidence that they benefit from it.”11 Thus, “consumers generally benefit from

9

See generally ABA Task Force on the Model Definition of the
Practice of Law, Report (2003), https://www.americanbar.org/content/dam/aba/administrative/professional_responsibility/modeldef_migrated/taskforce_rpt_803.pdf.
10
11

Id. at 5.

DOJ & FTC, Comments on the American Bar Association’s
Proposed Model Definition of the Practice of Law 3 (Dec. 20, 2002),
https://www.justice.gov/sites/default/files/atr/legacy/2008/03/26/
200604.pdf. Within those comments, DOJ and FTC provide a list

23
lawyer-nonlawyer competition in the provision of certain services,”12 and the EA’s goal of providing limited
legal advice to provide their members fits perfectly
within this paradigm. In comments submitted during
a later rulemaking by the Supreme Court of Hawaii,
DOJ and FTC noted that broad application of UPLs
“could preclude use of a number of services that provide reasonable options for some consumers, such as
. . . human resources management and other specialists advising employers about . . . federal, state and
local labor . . . and other regulatory compliance issues.”13 Even the federal government has recognized
the unnecessary harm and overblown ethical concerns
raised by application of UPLs to exactly the limited legal advice at issue here.
At bottom, the provision of limited legal services
by EAs strikes an ideal balance between the day-today legal needs of employers with the obvious value
that outside counsel and law firms would provide those
members in the rare situations, like litigation, that require individualized advice. As the provision of legal
advice by not-for-profit EAs would not raise any significant ethical concerns, the only remaining justification
for application of UPLs here is naked economic protectionism by private practice attorneys who would lose
of similar comments submitted to state bar associations. Id. at 4
n.14.
12

Id. at 4; see also id. at 8 (“Experienced lay employees advising their employer about what their firm must to do comply with
state labor laws” was an example of “lawyer-nonlawyer competition that might be eliminated” by an overly broad rule).
13

DOJ & FTC, Comments on Proposed Definition of the Practice of Law 2 (Jan. 25, 2008), https://www.justice.gov/sites/default/files/atr/legacy/2008/02/07/229962.pdf.

24
the profit opportunities created by denying individual
businesses access to an additional source of legal advice. This is entirely unsurprising considering that
protectionist concerns motivated attorneys during the
Great Depression to convince States to adopt many of
the UPLs that exist today. Pet. 9. UPLs created to suppress competition in the marketplace for legal advice
should not be wielded under the guise of upholding the
high ethical standards of the legal profession when
those ethical concerns are not implicated by not-forprofit EAs assisting their members with certain legal
matters.
CONCLUSION
This Court should grant the petition for writ of
certiorari.
Respectfully submitted,
Tejinder Singh
Counsel of Record
Charles H. Davis
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com
October 3, 2019

